HHS/OIG-Audit--"Financial Review of the Agency for Toxic Substances and Disease Registry's Use of Superfund Monies, (A-15-92-00010)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Financial Review of the Agency for Toxic Substances and Disease Registry's
Use of Superfund Monies," (A-15-92-00010)
August 20, 1993
Complete Text of Report is available in PDF format
(1.28 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report was prepared by KPMG Peat Marwick (KPMG), certified public
accountants, under contract with the Office of Inspector General (OIG). The
audit of the Agency for Toxic Substances and Disease Registry's (ATSDR) Superfund
transactions was performed to comply with provisions of the Comprehensive Environmental
Response, Compensation and Liability Act of 1980, as amended, which requires
the Inspector General of each Federal organization with Superfund responsibilities
to conduct an annual audit of the uses of Superfund monies to assure the fund
is being properly administered. The auditors identified deficiencies in ATSDR's
payroll and timekeeping functions. Also, the audit disclosed a discrepancy in
the Department of Health and Human Services Accounting Manual concerning operating
divisions' responsibility for developing and implementing a system of internal
controls to assure that grant recipients only withdraw cash as it is needed
to meet expenditures incurred under the grant.